                                                                                                 Il


                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: I05050019
                                                                                II          Page 1 of 1     ,
                                                                                                                    I
         While preparing for an audit at a university', OIG Audit discovered three diary notes written by
         an NSF Program ~ i r e c t o indicating
                                      r~         that the NSF program office had been contacted regarding
         possible misappropriation of grant funds. The award3 in question is a partnership grant. Our      .
         office opened a preliminary inquiry to determine if there was any merit to the statements made in
         the diary notes. After reviewing the diary notes and other public documents, our office
         determined that there was enough information to warrant an investigation. The preliminary
         inquiry was closed and an investigation was initiated.

         OIG contacted the professor4 (complainant) that contacted the program office several times to
         discuss the allegations and determine if he had additional information regarding the allegation.
         OIG also contacted the lead organization in the partnership grant5 and requested all financial
         information associated with the project. After reviewing the information submitted by the lead
         organization, we have determined that there is no indication of fraud or misappropriation of           ,
         funds related to this grant. Accordingly, this case is closed.




          1
            footnote redacted
          Qootnote redacted
          3
            footnote redacted
          4
            footnote redacted
          5
            footnote redacted


                                                                                                       I

NSF 01G Form 2 (1 1/02)
                                                            - -                                        I
